-s

No.

IN THE
SUPREME COURT OF THE UNITED STATES
Hector Valentin-PETITIONER
vs.
City of Rochester and Monroe County et al.-RESPONDENTS(S)
PROOF OF SERVICE
I, Hector Valentin, do swear or declare that on this date, June 12, 2020, as required by Supreme
Court Rule 29 I have served the enclosed Proof of Service and PETITION FOR A WRIT OF
CERTIORARI on each person required to be served, by hand delivering in person a box
containing the above documents.
The names of those served are as follows:
Christopher Noone, City of Rochester Law Department, 30 Church Street, Room 400 A,
Rochester, New York 14614
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 12, 2020.

Hector Valentin, Pro Se Petitioner

*

No.

IN THE
SUPREME COURT OF THE UNITED STATES
Hector Valentin-PETITIONER
vs.
City of Rochester and Monroe County et al.-RESPONDENTS(S)
PROOF OF SERVICE
I, Hector Valentin, do swear or declare that on this date, June 12, 2020, as required by Supreme
Court Rule 291 have served the enclosed Proof of Service and PETITION FOR A WRIT OF
CERTIORARI on each person required to be served, by hand delivering in person a box
containing the above documents.
The names of those served are as follows:
Matthew Brown, Monroe County Department of Law, 39 West Main Street, Rochester, New
York 14614
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 12,2020.

Hector Valentin, Pro Se Petitioner

